-                           -       -   ---.CP--IY4                  -   -


                       II
                                                                                NATIONAL SCIENCE FOUNDATION
                                                                                 OFFICE OF INSPECTOR GENERAL
                                                                                   OFFICE OF INVESTIGATIONS
                      11
                                                                             CLOSEOUT MEMORANDUM
                  I1




     TO: AIGI                                   File Number: I91 120028                                        Date: 05 March 2002
                  11

         Subject: Closeout Memo                                                                                        Page 1 of 1
                  I




                                There was no closeout written at the time this case was closed. The following information was
                I
                                extracted fiom the file in conformance with standard closeout documents.

                ,               Our office was informed that the subject1was alleged to have committed embezzlement, theft or
                                diversion of grant funds. This case was declined by US Attorney's Office. Questionable costs were
             '1                 resolved by Audit. A letter of reprimand was sent to the subject by NSF.
           1'
                                Accordingly this case is closed.
             I




          1


          11




         I1




                                -
         I



     If



     'I


     1




    11


    I1



    1




I/                                                    Prepared by:                      Cleared by:
                                               Agent:                    Attorney:     Supervisor:    AIGI
I
                            Name:
]I
I


                  Signature &
I                    date:
                           NATIONAL SCIENCE FOUNDATION
                                  1800 G STREET. N.W.
                                WASHINGTON. O.C. 20550

        >4$




           OIG Case Number 191'120028




I




    This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
    property of the Office of Inspector General. It may not be reproduced. It
    may be disclosed outside of NSF only by the Inspector General, pursuant to
    the Freedom of Information and Privacy Acts, 5 U.S.C.$8 552, 552a.
a
                                   NATIONAL 'SCIENCE FOUNDATION
                                             1800 G STREET. N W
                Fp.                        WASHINGTON. D.C. 20550
                 -
     ..   .
      .!.. '.'
                  :
              ;nsf :
                     'L.




          OFFICEOF
   INSPECTORGENERAL                                                 November 16, 1992


                                MISUSE OF NSF ADVANCED FUNDS
                           Investigation Report-Case No. I91120028
BASIS FOR INVESTIGATION
     In August 1991, we received an alleuarion that .
          president of,                      , - - - - , , and a principal
investigator (PI) on an NSF grant to.      had diverted NSF funds.'
Intentional diversion of grant funds is a criminal violation under
title 18. USC 1666. "Theft or Bribery Concerning Programs Receiving
Federal Funds. "
     Our initial inquiry disclosed that               was listed as
the PI on NSF Grant No, ---            The grant, .which was awarded
to,    on September 6, ~rcr9, funded the developmental costs of the
                   s newsletter              The grant award and an
                   rant totaled           . AS of August 1991. NSF
had advanced             0 for this project.
BACKGROUND'
                  f oundedf    and began publishing th         >rial
newsletter                  in 1983. In a proposal submit t g d to
                                       e         ~




NSF' s Dire               ucation and Human Resources in February
1989, -             stated that     would produce four pilot issues
of -      .-  and try to continue production of                on a
subscription sales basis after the grant period ex      d.
                    jmitted a proposed budget for the proje c t that
totaled          .   Of that amount,           3 (84 percent.) was
proposed for indirect costs.       -            us he submitted the
proposal to NSF to fund              start-up costs and he thought
that indirect costs from the project could be used to help cover
   's monthly business expenses. -       -
                                             -       .-


     'we received this allegation 2 months after completing an
audit of
               1
' I


                        In September 1989, NSF made the award, but reduced the
              "    project's approved budget to         . NSF approved $          for
                   indirect costs based upon a maximum-provisional indirect cost rate
                   of 39 percent.
           11

                                                      neither he nor his accountant
           (I           ~ccording to
                   understood how ,indirect costs &re to be charged to the project,
           I
                   and he contacted NSF several times for assistance on how to handle
                   indirect costs.              ',statedthat he was told by NSF staff
                   members that his concerns about indirect costs would be resolved
          11
                   later. According to       -           accepted the NSF grant based
          I        on these communications.        we have not been able to find
                   documentation to support      .     -         claims about these
          II       communications. -                                               ..

                        In September 1989,      established an interest-bearing escrow
                   account with              (now'           , . to process the NSF grant
                   funds for the                 'oject. On September 22, 1989,
                   received a $90,uuO advance of NSF funds for t h e 1           x o j ect .
                   On September 28, 1989,'               authorized a $50,000            to
                                toward a line-of:credit loan using funds that NSF had
                   advanced t o ,    2                 also authorized the transfer of
                   NSF funds from the      escrow account to the        general operating
                   account to pay for             general operations as well as for
                             project expenses. The October 31, 1989, bank statement
                   for the.'    escrow account established for NSF funds had a balance
                   of $1,151.69.
                        During the time         used NSF advances to pay loans and
                   operating
                   -          expenses  not  directly  related to the production of
                                  continued work on the           pro ject and incurred
                   expenses ;or the proj ect that included hi ng an editor/project
                   director in December 1989.          also used income from J-
                           subscriptions to cover-expenses incurred f o r ,
                   According to :      xccountant; by May 1990, the -           project
                   had incurred expenses totaling $90,000, which equaled the NSF
                   advance of grant funds. As a result,          equested another NSF
                   advance for the project.     This accounting was supported by
                   records.
      1

                        On May 9 , 1990,      received another advance from NSF for -
                   $125,000. On May 18, 1990,                  lthorized a *payment to
                              - of            toward a-line-of-credit loan.usincr the
                   funds that NSF had advanced. By June 21, 1990.                  had
                   authorized seven transfers of NSF funds from the   - escrow account

                        20ften,     - receivables for subscriptions for the
                           newsletter were late, which caused cash. flow problems at
                      . . Because of this,     had secured short-term, line-of-credit
                   loans from
                                            .

                                              cover   . expenses.
to the -   jeneral operating account. As of June 30, 1990, the -
escrow account had a balance
                         - .
                                of $3,042.66.       continued its
practice of paying            expenses with    revenues.
     On December 26, 1990,     received an NSF advance of $125,000.
On December 27, 1990,               authorized a pa);ment to'
     of           5 toward a~ line-of-credit loan using the funds
that NSF had advanced to -          By February 1991, less than
$4,000.00 remained in the      escrow accounts.
       In March 1991, we began an audit of grant expenditures
  incurred by        - --m August 15, 1989, through December 31,' 1990.
  The audit report was issued on June 21, 1991. Our auditors found
  no evidence of illegal diversion, but they questioned $115,887 of
  the $220,001 in claimed costs that       nad charged to the
  project through December 1990. Of $115,887 questioned, $80,533 was
  for improperly calculated indirect costs. The only large amount of
, direct charges questioned . was for consulting fees.        We found
  insufficient documentation to support the consulting services.
  This situation,yesultedin questioned costs totaling $17,107. We
  also .found that -     had not remitted to NSF the interest earned on
  the NSF advances, as required by Office of Management and Budget
  Circular No. A-110. This audit report was forwarded to NSF1s
  Division of Grants and Contracts for resolution:
     Because of merger negotiations with
ciosed the,    line-of-creditin July 1991. On August 9, 1991,
received an NSF advance of $50,000. Between August 12 and 23,
$50,000 was transferred from the       escrow account to the        .

general operating account.    On August 27, 1991,        received
another NSF advance of $50,000.
                                      ,&-.
     In August 1991, we receiGd: an allegation from the
editor/project director of            that NSF funds were possibly
being diverted from the project. OIG auditors began a review of
the allegation by comparing the information provided by the
complainant to information generated by our June 21, 1991, audit.
     On October 25, 1991,                fired the editor/project
director. In November 1991, the former       employee submitted a
proposal to- NSF entitled, llA Plea to Rescue,                  In
                                                               11

December 1991, NSF1s program staff responded to that proposal by
stating that it could not be reviewed until issues relating to the
existing grant were resolved. On December 6, 1991, the former
employee sent a letter to us claiming that               had fired
her because she had confronted him about the allegations that he
misappropriated NSF funds.
     In December 1991, the OIG ~nvestigationsUnit was asked to
review the information relating to the allegation. After we
reviewed the available documents, we,developed a joint audit and
investigation plan to (1) determine whether NSF funds had been
                                  3
        intentionally diverted and (2) resolve the issues raised in the
    '   June 21, 1991, audit.
    I

        METHOD OF INVESTIGATION
                                              .-
    I
             In April 1992, we reviewed,    ~ a n krecords for the escrow and
        general operating accounts to determine the amount of interest
        earned on NSF advances. The review disclosed that            .sed NSF
        advances to pay loans as described above. We also found that NSF
        funds were routinely.transferred from thei      sscrow account to the
            general operating account and then used to pay            general
        operating expenses.
             In May 1992, OIG auditors returned to -' -
1
                                                            to conduct an
I       indirect cost audit. By June 1, 1991,       had insufficient funds
I
        to continue regular operations and furloughed all employees until
        September 1992.    Because     .  accountant was furloughed, the
        indirect cost audit was postponed indefinitely. On June 23. 1992,
        we recommended that NSF deny any requests for funds from     until
        it could demonstrate fiscal stability and responsibility.
             In June 1992, OIG1s Investigations Unit, with the assistance
        of an OIG auditor, began -interviewing present and former1
        employees and consultants.              was interviewed on July 1-
        and 22, 1992. We focused our interviews on salary charges and
        consulting fees, which constituted most of the direct charges to
        the grant.
        FINDINGS CONCERNING EXCESSIVE CHARGES TO THE GRANT
             We found that      lad an adequate accounting system in place
        and had clear and sufficient records of charges to the grant.
                      admitted that he authorized the use of NSF funds for
        the             project to,pay ."      loans and seneral o~erating
        expenses. However, we found no evidence that        . .      and/or
              accountant,attempt=d,to conceal the use of gran< funds to pay
        - - expenses.               and the _ - accountant cooperated fully
        with our examinations of the          bank records and accounting
        records. We also found that       clearly documented the chargee to
        the grant and did not request additional NSF advances until the
        charges for the           project had equaled NSF advances already
        received. Even though      clearly documented charges to the grant,
        we-questioned some consulting fees and indirect costs.
             Salary and consulting fees. Most of the direct 'charges to the
        grant were for salary and consulting fees. The approved'
        budget allowed for the salaries of an editor/project director and
        an administrative assistant as well as 25 percent of the salary for
        a production manager. We interviewed all present and former
        employees who were employed in these positions and developed no
        reasons to question the salary charges to the grant for the
    editodproject director, administrative assistant, and production
D   manager. 3
         Although we did not question direct salary charges, we did
    mestion some of the consulting fees charged to the grant.
    other,
          -    - instructed the,     accountant to charge portions of
               employees1 salaries to the grant as consulting fees.
    Thesd      employees provided some services to the project that
    would ordinarily have been provided by outside consultants. The
    June 21, 1991, audit identified and questioned these costs because
        had no written agreements or contracts for services and there
    were no invoices detailing services rendered in support of this
    work. Because of the lack of documentation, the audit guestioned
    $17,107 of the $28,191 charged to the grant for consulting fees.
         We interviewed all available present and former            employees
    whose salaries were partially charged to the grant a s consulting
    fees. Although we found that these employees did provide some
    services in support of the'             _-  project, some of the
    consulting fees were excessive when compared to the description of
    the services provided.               reviewed these consulting fees
    and agreed that some were excessive.                     accepted full
    responsibility for the excessive fees stating chat he had
    instructed the      accountant to charge portions of the salaries
    for these employees based on his estimates of the time that he
    thought the employees would spend working on the _ -           - project.
                                                            accountant to
                  stated that he forgot to tell
    reduce the charges to the grant for consulting f e e s f o-r. certain
    employees when their responsibilities to the -                    project
    decreased or ended.
         Because of a lack of adequate documentation, we a r -- e unable to
    determine an exact amount of the -excessive consult in -    ees charged
    to the grant. We found no evidence that                   tentio ion ally
    inflated these consulting fees . However, it now a p p e ars that the
    initial questioned cost of $17,107 for.undocumented consulting fees
    is high because some portion of this *amount is clearly allowable-




         3 0 ~ r1991 audit questioned $10,000 for salary Payments
                  .fromSeptember through December 1989. T h e s e payments
    were questioned because the proposal stated that
    time would.not be charged to the grant.                 claimed that
    those payments were for his services when he w a s .acting as
    editor/project director before he hired someone t o fill        - - - that
    position in December 1989. Those salary payments t c      .
                                                              p



    will be resolved in the regular audit resolution p r o c e s s -
         Indirect costs. 1
                            It
                             - . s that
                                   clear through .interviews with
    accountant and                      they do not know how to compute
    and obtain reimbursement for indirect costs.4                 stated
    that after the grant was awarded, he requested assistance from NSF
    about indirect costs, but never received the requested assistance.
    We have been unable to confirm that, -                     requested
    assistance.
         In our June 1991 audit report, we questioned all indirect
    costs to the grant because      arbitrarily charged indirect costs
                                     *

    to the grant each month.   In accordance with the grant agreement,
        was limited to charging ,indirect costs to 39 percent of the
    direct costs, less equipment purchases.    We calculated that the
    indirect costs charged exceeded the maximum provisional rate by
    $31,150 from September 1989 to December 1990. An indirect cost
    audit was requested and begun in May 1992. However, we were unable
    to complete that audit because       suspended regular operations.
    Accordingly, we do not believe NSF should allow any indirect costs
    to this grant above-the 39-percent rate.
    FINDINGS CONCERNING THE MISUSE OF NSF ADVANCES
         The Grant Policy Manual states that NSF projects may be
    financed on a working capital advance basis.    The Grant Policy
    Manual, section 427, states that NSF funds may be advanced to a
    grantee to cover estimated disbursement needs for the project
    during a given period.    Advanced -'funds are to be kept in an
    interest-bearing account, and interest earned on unused advanced
    funds is to be remitted to NSF.
                             -   .
              did receive funds advanced from NSF to cover the estimated
    disbursement needs for the                project.      ow ever, bank
    records show NSF advances that were intended to pay project
    expenses were usually expended within 2 months after receipt.
                  admitted that the NSF advanced funds were used to pay
          loans Hnd general operating expenses, but added that
    revenues
        -      were  later used to pay the expenses related to the
               project.

         This use of NSF advanced funds is inconsistent with the Grant
    Policy Manual because the advanced funds were not used as intended,
    to pay expenses related to the           project. - Instead, the NSF
    funds were used to pay,     loans and general operating expenses.
    This is not an acceptable financial practice even though.
    ultimately used     revenues for the           project that equaled
    the total NSF funds advanced to      for the -           project.


                 a small business and this is the first federal grant
    it had ever received. Confusion about indirect costs is typical
    among first-time grantees.
I
     During our investigation and audits, we identified some
excessive expenditures that we believe should not have been charged
to the grant. However, we found no evidence that these charges
were fraudulent or that any charges to the grant were fabricated.
Because we found no-evidenceof fraudulent charges toAthe grant, we
view the excessive expenditures as questioned costs that should be
resolved in the usual audit resolution process.
     Finally, during the 1991 audit, OIG determined that the NSF
advanced funds that     requested were excessive and recommended
that     pay NSF interest on the advances. Since that time,
has paid NSF $2,481.45 for interest on the NSF advanced funds.
                 1



FINDINGS CONCERNING THE ALLEGATION THAT
             RETALIATED AGAINST THE FORMER
EDITOR/PROJECT DIRECTOR OF
                                         '   ,
     The former editor/project director of             'has claimed
that               fired her because she confronted him with her
belief that he had misappropriated NSF f u ~ d sfrom the
project.               has stated that the , employee was fired
because she was insubordinate to the            office manager in
               absence.
     According ta         documents, this incident occurred on
October 18, 1991, and was one of several instances where the former
    tmployee had been insubordinate land disrespectful to the
office manager and 'other    employees.,       -      said that the
former      employee was an excellent editor, " but that she had
difficulty working with others and her behavior was often
disruptive to the      office.
       We have reviewed all available documents and interviewed all
pertinent witnesses relating to this allegation.         The former
editor/project director reported her suspicions and provided
information to #our offi2e in August 1991 before her termination.
However, we have no evidence indicating that               knew that
the former employee was complaining to OIG when he fired her. In
addition                provided     documents to support his claims
that he fired'the employee because she had been insubordinate on
October 18, 1991. These documents were supported
                                            -       by the testimony
of.. other     employees.
     In conclusion, we found no evidence that,              fired
the editor/project director of -          because she confronted
       ,'    about her suspicions or because she reported her
suspicions to NSF.     Instead, the documentary and testimonial
evidence that we developed indicates that the:       employee was
fired because she had been insubordinate to her supervisors and
disrespectful to her colleagues on several occasions.
CONCLUSIONS
                            _I   .       improperly diverted NSF
     We concluded that =,                                . project by
advanced funds that were intended   for the                   business
                                business  loans - - and       diverted
using those funds to pay                               *
                                                        \

expenses. However, we found no evidence that
                                 has produced the -four used-issues of
                                                              revenues
the funds to defraud NSF.
          as promised in the grant proposal, and
from it.  other business activities to pay legitimate expenses
related to the           project.                           %   I




     We found no evidence that                 .
                                              and/or      , accountant
                                                             operating
attempted to conceal the use of graAt iukds to .pay
expenses.i'              (, an   nks and
                                     accountant cooperated
                                         accounting records.fully
                                                               We with
                                                                  also
our examinations of 'cne
found that - . clearly documented the charges to the grant and did
not r e w e s t additional NSF advances until the charges for the
             project equaled the NSF advances.
           a? tk---'-cleari? .documented'diiect charges to the grant,
                        I


 we L--..- o m c some consulting fees and indirect costs charged to
 the grant were questionable by generally acceptable .auditing
 standards. These questioned emenses, as well as those expenses
 questioned in Audit Report No..                should be resolved by
 the usual audit resolution process..
 REFERRAL TO THE U . S . ATTORNEY'S   OFFICE       *   !

      Because funds advanced by.NSF.to     were initially used for
 purposes unrelated to the grant, we referred this matter to the
 U.S. Attorney's Office in the District of Columbia for a
 determination about whether                               ted. On
 October 6, 1992, the U. S. Attorneyfs Office declined to prosecute
 in favor of imposition of appropriate administrative remedies by
 NSF   .
                                   t  i
 Based on our findings and conclusions, and after consultation with
 the U.S. Attorney's Office, we recommend (in addition to the
 recommendations in Audit Report                   that :
  ..
      (1) NSF recover all questioned costs relating to the
 consulting fees questioned in the 1991 audit, which totaled
 $17,107.

     ( 2 ) NSF recover all indirect charges to the grant that are
above the maximum provisional rate of 39 percent; as stated in the
grant letter.
       131 NSF terminate the grant and not allow
 remaining funds allocated for the grant because to receive the
 financial problems pose a risk that funds would not-:
                                                     ae continued
                                                         properly
 managed.
     ( 4 ) ~ ~ ~ ~ s ~ - ~ iof
                             v iGrants
                                 i i o nand Contracts be advised of this
matter so adequate controls can be placed on future grants or
contracts awarded to        ;o ensure that similar misuses of advances
funds cannot occur.
                                       I

     (5) The Director of the Division of Grants and Contracts send
a letter of reprimand to              forexpenses.
                                           improperly using the NSF
advanced funds to pay company loans and
  - COHMENTS TO OUR DRAFT REPORT
           commexlts on our findings and conclusions.        did 'not
~0IYKnent
--        on the factual  .presentation  and findings in the report.
     stated that the use of the word "diverted" in our conclusion
seems to overstate                  -, action.       stated that the
funds were used in a out-of-time sequence,'but were not in fact
diverted.
     OIG response. We disagree with this representation of
use of the NSF advanced funds. NSF funds were advanced to    - to
cover legitimate disbursement needs for the          projetc. We
view the misuse of the advanced funds by    as a-diversion of the
funds from their intended purpose. Although we found that this
diversion of funds was not criminal in nature, we view this
diversion as a serious misuse of NSF funds.
          comments   to   Reconrmendation 1.       would like the
opportunity to present documentation'to NSF that would explain
                                                         -
                                                               how
much of the $17,107 was expended for efforts relating tc
      OIG response.      can present the documentation during the
audit resolution process. However, our own rough calculation of
excessive consulting charges to the grant total about $16,000,and
w e recommend that the Division of Grants and.Contracts accept no
less than that amount.
   I                                   It is
          ~nnnents to Recommendation 2 .           position that
the maximum provisional rate for indirect costs had never been
agreed upon and that some compromise should be made on the final
indirect costs rate.
     OIG response. ' We reiterate our recommendation that the
maximum provisional rate of 39 percent be used to calculate
acceptable indirect costs.
          _ omments to Recommendation 3.       stated that it has
legitimately incurred additional direct costs in producing the
final issue of8           and that an equitable resolution of this
matter would allow      zo cover these legitimate costs.
     OIG response,    We reiterate our recommendation that NSF
immediately terminate this grant. However, if the Division of
Grants and Contracts chooses to pay for additional direct costs, it
should review all remaining invoices and expenditures related to
the grant to verify the legitimacy of the additional costs that
have been incurred.
        - ,-mments to Recommendations 4 and 5 .       requested that
the letter of reprimand contain language that acknowledges the fact
that no illegal or fraudulent activity was found and that no
suspension ordebarment is being sought and that NSF will work with
   : to establish reasonable procedures to ensure that future grants
or contracts are administered in accordance with NSF requirements.
     OIG response. We have no objection to such language in the
letter of reprimand; however, we believe that the letter must
emphasize that any diversion of NSF funds from their intended
purpose is a serious misuse of NSF funds.
